 AUDIT OF WEST METRO DRUG TASK FORCE

EQUITABLE SHARING PROGRAM ACTIVITIES

     JEFFERSON COUNTY, COLORADO





       U.S. Department of Justice

     Office of the Inspector General

              Audit Division



      Audit Report GR-60-13-010

              July 2013

          AUDIT OF THE WEST METRO DRUG TASK FORCE 

           EQUITABLE SHARING PROGRAM ACTIVITIES

                JEFFERSON COUNTY, COLORADO


                             EXECUTIVE SUMMARY


      The U.S. Department of Justice (DOJ), Office of the Inspector General
(OIG), Audit Division, has completed an audit to assess whether the West
Metro Drug Task Force (WMDTF) accounted for DOJ equitable sharing funds
and property, and used such revenues for allowable purposes as defined by
applicable guidelines. The audit covered the WMDTF’s fiscal years (FYs)
2011, 2012, and most of 2013.1 During the audit period, the WMDTF
received $1,485,827 and spent $414,922 in equitable sharing funds,
primarily on task force facility rent and computer equipment.

      We found that the WMDTF primarily spent these monies to enhance
and support law enforcement capabilities of the task force. However, we
found WMDTF’s Equitable Sharing Agreement and Certification reports for
FYs 2011 and 2012 were submitted late and were inaccurate. We also found
weaknesses with WMDTF’s reconciliation of equitable sharing funds
requested compared to those received. We identified $80,000 in questioned
costs related to expenditures that were not adequately supported.

      This audit report includes four recommendations to the Criminal
Division, which oversees the use of equitable sharing funds by recipients.
Our findings are discussed in greater detail in the Findings and
Recommendations section of the report. The audit objectives, scope, and
methodology are contained in Appendix II.




      1
          WMDTF’s fiscal year begins July 1 and ends June 30. We tested expenditures for
the entirety of WMDTF’s FY 2011 and FY 2012, and for FY 2013 through May 20, 2013.
                                           i
         AUDIT OF THE WEST METRO DRUG TASK FORCE 

          EQUITABLE SHARING PROGRAM ACTIVITIES

               JEFFERSON COUNTY, COLORADO


                                TABLE OF CONTENTS



INTRODUCTION................................................................... 1

  DOJ Equitable Sharing Program ...........................................................1

  West Metro Drug Task Force................................................................3

  OIG Audit Approach ...........................................................................4

FINDINGS AND RECOMMENDATIONS .................................. 5

  Equitable Sharing Agreement and Certification Forms .............................5

  Accounting for Equitable Sharing Receipts.............................................7

  Use of Equitable Sharing Funds............................................................9

  Recommendations............................................................................ 10

STATEMENT ON INTERNAL CONTROLS .............................. 11

STATEMENT ON COMPLIANCE WITH LAWS AND

REGULATIONS ................................................................... 12

APPENDIX I - SCHEDULE OF DOLLAR-RELATED FINDINGS 13

APPENDIX II - OBJECTIVES, SCOPE, AND METHODOLOGY 14

APPENDIX III - SUMMARY OF TESTED EQUITABLE SHARING

PURCHASES ....................................................................... 16

APPENDIX IV - SUMMARY OF CRIMINAL DIVISION

RESPONSE TO THE DRAFT REPORT ................................... 18

APPENDIX V - WEST METRO DRUG TASK FORCE RESPONSE

TO THE DRAFT REPORT ..................................................... 20

APPENDIX VI - ACTIONS NECESSARY TO CLOSE THE

REPORT ............................................................................. 22

                                 INTRODUCTION

      The Department of Justice (DOJ), Office of the Inspector General
(OIG), Audit Division, has completed an audit of the use of DOJ equitable
sharing funds by the West Metro Drug Task Force (WMDTF) in Jefferson
County, Colorado. The objectives of the audit were to assess whether the
WMDTF accounted for equitable sharing funds and property, and used such
revenues for allowable purposes as defined by applicable guidelines. The
audit covered WMDTF’s completed fiscal years (FY) 2011 and 2012, and the
majority of 2013, beginning on July 1, 2010, and ending on May 20, 2013. 2
During that period, the WMDTF received $1,485,827 as a participant in the
DOJ equitable sharing program. WMDTF’s reported equitable sharing fund
balances, expenditures, and revenues for FY 2011 and 2012 are displayed in
Exhibit 1.

EXHIBIT 1: WMDTF REPORTED EQUITABLE SHARING FUND
           	
            ACTIVITY, FYs 2011-2012 3
 FISCAL   BEGINNING                 FUNDS  INTEREST   ENDING
  YEAR     BALANCE   EXPENDITURES RECEIVED  INCOME   BALANCE
  2011     $897,110      $71,598  $543,296   $2,340 $1,371,148
  2012   $1,371,148      $88,171  $424,927   $1,075 $1,708,978
Sources: WMDTF ESACs

DOJ Equitable Sharing Program

        Since the Comprehensive Crime Control Act of 1984 authorized the
implementation of a national asset forfeiture program, asset forfeiture has
become one of the most powerful tools available to law enforcement
agencies because it deprives criminals of the profits and proceeds derived
from their illegal activities. A key element of the DOJ’s asset forfeiture
initiative is the equitable sharing program whereby the DOJ and its
components share a portion of federally forfeited cash, property, and
proceeds with state and local law enforcement agencies. 4


       2
          WMDTF’s fiscal year begins July 1 and ends June 30. We tested expenditures for
the entirety of WMDTF’s FY 2011 and FY 2012, and for FY 2013 through May 20, 2013.
       3
        Throughout this report, differences between individual amounts and totals are due
to rounding.
       4
          Federal asset forfeiture programs are also administered by the U.S. Department
of the Treasury. This audit was limited to equitable sharing revenues received through the
DOJ equitable sharing program.
       Although several DOJ agencies are involved in various aspects of the
seizure, forfeiture, and disposition of equitable sharing revenues, three DOJ
components work together to administer the equitable sharing program –
the United States Marshals Service (USMS), the Justice Management
Division (JMD), and the Criminal Division’s Asset Forfeiture and Money
Laundering Section (AFMLS). The USMS is responsible for transferring asset
forfeiture funds from the DOJ to the receiving state or local agency. The
JMD manages the Consolidated Asset Tracking System (CATS), a database
used to track federally seized assets throughout the forfeiture life-cycle.
Finally, AFMLS tracks membership of state and local participants, updates
the equitable sharing program rules and policies, and monitors the allocation
and use of equitably shared funds.

       State and local law enforcement agencies may receive equitable
sharing funds by participating directly with DOJ agencies on investigations
that lead to the seizure and forfeiture of property, or by seizing property and
requesting one of the DOJ agencies to adopt the seizure and proceed with
federal forfeiture. Once an investigation is completed and the seized assets
are forfeited, the assisting state and local law enforcement agencies can
request a share of the forfeited assets or a percentage of the proceeds
derived from the sale of forfeited assets. Generally, the degree of a state or
local agency’s direct participation in an investigation determines the amount
or percentage of funds shared with that agency.

       To request a share of the seized assets, a state or local law
enforcement agency must first become a member of the DOJ equitable
sharing program. Agencies can become members of the program by signing
and submitting an annual Equitable Sharing Agreement and Certification
(ESAC) form to AFMLS. As part of each annual agreement, officials of
participating agencies certify that they will use equitable sharing funds for
law enforcement purposes.

     As summarized in Exhibit 2, the Guide outlines categories of allowable
and unallowable uses for equitable sharing funds and property.




                                       2

EXHIBIT 2: SUMMARY OF ALLOWABLE AND UNALLOWABLE USES
           FOR EQUITABLE SHARING FUNDS
             ALLOWABLE USES                                  UNALLOWABLE USES
Salaries for new and temporary appointments
of law enforcement personnel                     Salaries for existing positions
Overtime for officers and investigators,
payments to informants, reward money, and        Uses contrary to the laws of the state or local
the purchase of evidence                         jurisdiction
Training of officers, investigators,
prosecutors, and law enforcement support         Use of shared vehicles, forfeited property, or
personnel necessary to perform official law      items purchased with shared funds by non-
enforcement duties                               law enforcement agency personnel
Purchase, lease, construction, expansion,        Capital improvements on leased property or
improvement, or operation of law                 space, and capital expenditures without
enforcement or detention facilities              AFMLS approval
Support of eligible community-based
programs through direct purchase of supplies,
equipment and/or services                        Cash transfers to community-based programs
Law enforcement equipment, travel and            Use of federally forfeited luxury vehicles for
transportation costs, awards and memorials,      other than undercover law enforcement
and language assistance services                 purposes
                                                 Education-related costs such as scholarships,
Drug and Gang Education and Awareness            financial aid, and non-law enforcement
Programs                                         classes
Accounting, auditing, and tracking of
expenditures for federally shared cash,
proceeds, and tangible property (excludes        Extravagant expenditures and non-law
salaries for agency personnel)                   enforcement use of shared assets
Transfers to other law enforcement agencies,
matching contributions or shares to law          Purchase of food and beverages, unless part
enforcement related federal grant programs,      of a conference package policy or if state or
and pro rata funding for costs supporting        local law or rules permit officers to be
multi-agency items or facilities                 reimbursed for such expenses
Source: Guide to Equitable Sharing for State and Local Law Enforcement Agencies

West Metro Drug Task Force

     The WMDTF is located in the western suburbs of Denver, Colorado.
WMDTF was established in 1995 and represents six local law enforcement
and prosecutorial agencies. WMDTF has a staff of 22 and is governed by an
executive board, made up of the executive leadership of each member
agency.

      WMDTF became a member of the DOJ asset forfeiture program in
1998. It is also a member of a task force with the Drug Enforcement
Administration (DEA) where its officers participate in DEA-led investigations.
At the time of our audit, asset forfeitures resulting from task force
investigations were the WMDTF’s sole source of DOJ asset forfeiture funds.




                                                3

OIG Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the DOJ equitable sharing program. Unless
otherwise stated, we applied the Guide to Equitable Sharing of Federally
Forfeited Property for State and Local Law Enforcement Agencies, (Guide)
issued by AFMLS in April 2009, as our primary criteria. The Guide identifies
the accounting procedures and requirements for tracking equitable sharing
monies and tangible property, establishes reporting and audit requirements,
and defines the permissible uses of equitable sharing resources.

      To conduct the audit, we tested the WMDTF’s compliance with the
following three aspects of the DOJ equitable sharing program:

  •	 Equitable Sharing Agreement and Certification Forms to

     determine if these documents were complete and accurate.


  •	 Accounting for equitable sharing receipts to determine whether
     standard accounting procedures were used to track equitable sharing
     assets.

  •	 Use of equitable sharing funds to determine if equitable sharing
     funds were used for law enforcement purposes.

     See Appendix II for more information on the audit objectives, scope
and methodology.




                                     4

                 FINDINGS AND RECOMMENDATIONS

          The West Metro Drug Task Force primarily used equitable
          sharing funds to enhance and support law enforcement
          activities of the task force. However, the Equitable
          Sharing Agreement and Certification reports for FY 2011
          and FY 2012 were submitted late and neither report
          accurately stated periodic expenditures. In addition, the
          WMDTF did not reconcile its equitable sharing request log
          when funds were received. Finally, $80,000 in equitable
          sharing expenditures was not supported with adequate
          documentation.

Equitable Sharing Agreement and Certification Forms

      The Guide requires participating law enforcement agencies to submit
the ESAC report within 60 days of the end of the agency’s fiscal year,
regardless of whether equitable sharing funds were received or maintained
that year. Additionally, the ESAC must be signed by the head of the law
enforcement agency and a designated official of the local governing body.
By signing and submitting the ESAC, the signatories agree to follow statutes
and guidelines that regulate the equitable sharing program and certify the
accuracy of the agency’s accounting of equitable sharing funds and property.

Completeness and Timeliness of ESAC Reports

       We tested WMDTF’s compliance with ESAC reporting requirements to
determine if its reports were accurate, complete and submitted in a timely
manner. We obtained a copy of WMDTF’s ESACs submitted for FYs 2011 and
2012 and found that the reports were complete and signed by appropriate
officials. However, we determined that the FY 2011 ESAC was submitted 84
days late and the FY 2012 ESAC was submitted 45 days late, as shown in
Exhibit 3.

EXHIBIT 3: ESAC TIMELINESS
                         ESAC DUE                      INITIAL
    FY       FY END DATE   DATE                      SUBMISSION        DAYS LATE
   2011       06/30/11   08/29/11                     11/21/11            84
   2012       06/30/12   08/29/12                     10/13/12            45
Sources: Guide to Equitable Sharing for State and Local Law Enforcement Agencies and
WMDTF ESACs

      ESACs should be submitted within 60 days of the end of WMDTF’s


                                           5
fiscal year, as required by the Guide. Therefore, we recommend that the
Criminal Division ensure that the WMDTF submits ESACs timely in
accordance with equitable sharing guidelines.

Accuracy of ESAC Reports

      To verify the total amount of equitable sharing funds received, we
compared the receipts listed on the ESACs to the total amount listed as
disbursed on the DOJ’s CATS report. For both periods, this comparison
showed that the ESAC listed the same amount of receipts as the CATS
report, as shown in Exhibit 4.

EXHIBIT 4: RECEIPTS COMPARISON
                      RECEIPTS PER            DISBURSEMENTS PER
   DATES PER ESAC        ESAC                   CATS REPORT     DIFFERENCE
 07/01/10 – 06/30/11   $543,296                   $543,296           -
 07/01/11 – 06/30/12   $424,927                   $424,927           -
Sources: WMDTF ESACs and CATS reports

     To verify the total expenditures listed on the ESACs, we analyzed the
WMDTF’s equitable sharing accounting records. We noted that the total
expenditures reported on the accounting records did not match the
expenditures listed on the ESACs, as shown by Exhibit 5.

EXHIBIT 5: EXPENDITURES COMPARISON
                           EXPENDITURES PER    EXPENDITURES PER
    DATES PER ESAC              ESAC          ACCOUNTING RECORDS    DIFFERENCE
 07/01/10 – 06/30/11             $71,598            $78,480           $6,882
 07/01/11 – 06/30/12             $88,171           $114,206          $26,035
Sources: WMDTF ESACs and accounting records

       We determined that the $6,882 difference between the ESAC ending
June 30, 2011, and WMDTF’s accounting records for that period occurred
because the July 2011 facility rent payment, which was paid June 29, 2011,
was not included in the report; however, that payment did not appear to be
accounted for in the subsequent report. We determined that the $26,035
difference between the ESAC ending June 30, 2012, and WMDTF’s
accounting records for that period occurred because two expenditures, for
$20,000 and $6,035, were not included in the report. We discussed the
differences with WMDTF’s commander, who stated that the three
expenditures had not been accounted for in the ESACs due to an oversight
when completing each report.

       ESACs should accurately reflect expenditures for the reporting period.


                                        6

Inaccurate reporting of equitable sharing fund activity on the ESAC report
may adversely affect DOJ equitable sharing fund program efforts.
Therefore, we recommend that the Criminal Division work with the WMDTF
to ensure that it develops and implements procedures to accurately report
equitable sharing expenditures on ESACs.

Accounting for Equitable Sharing Receipts

       The Guide requires that law enforcement agencies use standard
accounting procedures to track equitable sharing program receipts.
Participating agencies should also maintain a log of all sharing requests that
consecutively number the requests while listing the seizure type, seizure
amount, share amount requested, amount received, and date received for
each request. 5 The amount received may differ from the amount requested.
Therefore the receiving agency should update the log when an E-Share
notification is received. Additionally, DOJ equitable sharing funds must be
accounted for separately from other funds.

       WMDTF is a member of a task force with the Drug Enforcement
Administration (DEA) and two of its officers are assigned to a DEA-led group.
For seizures from DEA group investigations in which WMDTF participated,
WMDTF received an agreed fixed percentage of proceeds from each seized
asset.

       We reviewed how the WMDTF requested and tracked DOJ equitable
sharing receipts. When an asset was seized, an officer serving on the task
force prepared a form requesting a portion of the forfeiture. Each request
form was signed and certified by the WMDTF commander and a member of
WMDTF’s executive board. To facilitate the request, the WMDTF task force
officer worked in conjunction with a local DEA asset forfeiture specialist. We
determined that WMDTF maintained a log of anticipated seizure funds.

       After the requested assets went through legal proceedings and were
forfeited, the USMS disbursed the assets or proceeds from the sale of
forfeited property to the WMDTF. The WMDTF received receipts via
Electronic Fund Transfer (EFT) into a savings account specifically reserved
for federal asset forfeiture funds, and the task force commander was notified
by email when funds were deposited into the WMDTF bank account; deposits
greater than the $250,000 FDIC threshold were secured by a collateral
agreement with the bank. The WMDTF commander then moved equitable
      5
         Under AFMLS rules in effect during the audit period, a law enforcement agency
submitted separate share requests on form number DAG-71, “Application for Transfer
of Federally Forfeited Property” for each shared asset request.



                                            7

sharing funds into an operating account to pay expenses as needed, after
approval by the task force executive board.

      Although the WMDTF separated the requesting and accounting
functions with regard to its equitable sharing receipts, we found it did not
update its seizure log when equitable sharing funds were actually received.
Without performing that reconciliation, we believe that the WMDTF could not
ensure that it had received and accounted for all equitable sharing funds
properly. Therefore, we recommend that the Criminal Division ensure that
the WMDTF has a process in place to reconcile its equitable sharing requests
log when EFT notifications are received to ensure that the WMDTF: (1)
receives requested funds, and (2) maintains accurate records.

      We reviewed equitable sharing receipts for WMDTF’s two most recently
completed fiscal years. From July 1, 2010, through June 30, 2012, the EFT
log reported 155 equitable sharing receipts for the WMDTF, totaling
$968,222, as shown in Exhibit 6. We reconciled the EFT log with the CATS
report and found that the receipts matched.

EXHIBIT 6: WMDTF RECEIPTS
 WMDTF FY    CASH/ PROCEEDS                 PROPERTY             TOTAL
    2011        $543,296                       $0              $543,296
    2012        $424,927                       $0              $424,927
   TOTAL       $968,222                        $0             $968,222
Source: CATS report

      As shown by Exhibit 7, we also sampled five of the highest receipts
from FY 2011 and 2012 to ensure that these monies were properly deposited
and recorded in a timely manner.

EXHIBIT 7: WMDTF SAMPLED RECEIPTS
                                        DATE
    SAMPLE       DATE RECEIVED PER  RECEIVED PER                 AMOUNT
    COUNT         USMS EFT LOG     WMDTF RECORDS                RECEIVED
      1              09/27/10         09/27/10                  $298,077
      2              11/24/10         11/24/10                   $77,931
      3              02/25/11         02/25/11                   $44,387
      4              04/27/12         04/27/12                   $37,700
      5              06/22/12         06/22/12                   $39,709
                                           TOTAL               $497,803
Source: EFT log from USMS and Accounting Records from WMDTF

      Our testing determined that the WMDTF accurately recorded the five
asset forfeiture receipts in its accounting records; however, we were only

                                        8
able to trace two of the five sample receipts to the WMDTF’s log of seizure
receipts. As previously stated, lack of periodic reconciliation of receipts to
the seizures log does not ensure that the WMDTF has received and
documented all equitable sharing funds.

Use of Equitable Sharing Funds

       Generally, participating agencies should use equitable sharing funds for
law enforcement purposes. Under certain circumstances, however, up to
15 percent of the total of shared monies received by an agency in the last 2
fiscal years may be used to pay for costs associated with drug abuse
treatment, drug and crime prevention efforts, housing and job skills
programs, or other nonprofit community-based activities. However, the
Guide requires that the participating agency directly purchase these items
and services. Law enforcement agencies can also transfer equitable sharing
monies to another law enforcement agency.

        The WMDTF commander decided how to use asset forfeiture funds for
purchases valued at less than $5,000. Executive board approval was
required for purchases valued above $5,000, although the commander
requested board approval for some smaller expenditures as well. The
WMDTF spent a total of $414,922 in equitable sharing funds during the audit
period for computer equipment replacement, hazardous waste cleanup, and
facility rent. 6

      We tested 42 transactions, which represented all expenditures for
WMDTF’s FYs 2011 through May 2013, to assess whether these expenditures
were allowable under equitable sharing guidelines. For 38 transactions, the
WMDTF maintained documents that adequately supported each tested
transaction.

        However, our review of equitable sharing expenses identified four
$20,000 transfers from the WMDTF’s equitable sharing savings account to
the operations account; we were unable to trace those transfers to specific
expenditures. WMDTF officials stated the transfers were to pay for law
enforcement activities and operating expenses related to the task force
facility, but were unable to provide specific expenditures. WMDTF officials
stated an expenditure log would be maintained in the future to document
expenditures paid by transfers. Because we were unable to verify the four
transfers to supporting documents, we consider the expenditures to be

       6
         Appendix III includes a list of items the WMDTF purchased with equitable sharing
funds during the audit period.



                                            9

unsupported equitable sharing program expenses. Therefore, we
recommend that the Criminal Division remedy the $80,000 in unsupported
expenditures associated with the four transfers.

Recommendations

We recommend that the Criminal Division:

  1. Ensure that the WMDTF submits Equitable Sharing Agreement and
     Certification reports timely in accordance with equitable sharing
     guidelines.

  2. Work with the WMDTF to ensure that it develops and implements
     procedures to accurately report equitable sharing expenditures on its
     annual certification form.

  3. Ensure that the WMDTF has a process in place to reconcile its

     equitable sharing funds request log when funds are received.


  4. Remedy the $80,000 in questioned costs due to unsupported 

     expenditures.





                                    10

              STATEMENT ON INTERNAL CONTROLS

       As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of West Metro Drug Task Force
(WMDTF) internal controls was not made for the purpose of providing
assurance on its internal control structure as a whole. WMDTF management
is responsible for the establishment and maintenance of internal controls.

      As noted in the Findings and Recommendations section of this report,
we identified deficiencies in the WMDTF’s internal controls that are significant
within the context of the audit objectives and based upon the audit work
performed that we believe adversely affect the WMDTF’s ability to
adequately track equitable sharing funds requested. Although WMDTF
maintained a log of seizure requests, it did not reconcile equitable sharing
funds received to those that were requested, and the WMDTF’s seizure log
was not consistently updated. As a result, the WMDTF could not reasonably
ensure that equitable sharing funds requested were later received.

      Because we are not expressing an opinion on the WMDTF’s internal
control structure as a whole, this statement is intended solely for the
information and use of the WMDTF. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.




                                      11

               STATEMENT ON COMPLIANCE WITH 

                   LAWS AND REGULATIONS


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
West Metro Drug Task Force’s (WMDTF) management complied with federal
laws and regulations, for which noncompliance, in our judgment, could have
a material effect on the results of our audit. WMDTF’s management is
responsible for ensuring compliance with applicable federal laws and
regulations. In planning our audit, we identified the following laws and
regulations that concerned the operations of the auditee and that were
significant within the context of the audit objectives:

        •	 the Guide to Equitable Sharing for State and Local Law
           Enforcement Agencies (Guide), dated April 2009; and

        •	 OMB Circular No. A-133, Audits of States, Local Governments
           and Non-Profit Organizations, dated June 26, 2007.

       Our audit included examining, on a test basis, the WMDTF’s
compliance with the aforementioned laws and regulations that could have a
material effect on the WMDTF’s operations, through interviewing WMDTF
officials, examining WMDTF documentation, analyzing WMDTF data, and
assessing WMDTF internal controls.

       As noted in the Findings and Recommendations section of this report,
we found that the WMDTF did not always comply with the Guide with respect
to accuracy and timeliness of annual Equitable Sharing Agreement and
Certification reports, the adequacy of supporting documentation for
expenditures of equitable sharing funds, the reconciliation of equitable
sharing funds requested and received, and consistently updating the seizure
log.




                                    12

                                                                                 APPENDIX I

             SCHEDULE OF DOLLAR-RELATED FINDINGS


                                                                           AMOUNT PAGE

 QUESTIONED COSTS: 7


 Unsupported expenditures                                                     $80,000         10


 Total Questioned Costs:                                                      $80,000


 TOTAL DOLLAR RELATED FINDINGS:                                              $80,000




      7
         Questioned Costs are expenditures that do not comply with legal, regulatory or contractual
requirements, or are not supported by adequate documentation at the time of the audit, or are
unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver, recovery of
funds, or the provision of supporting documentation.



                                                 13

                                                             APPENDIX II

               OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate, evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

Objective

      The objective of the audit was to assess whether the West Metro Drug
Task Force (WMDTF) accounted for equitable sharing funds properly and
used such revenues for allowable purposes defined by applicable guidelines.
We tested compliance with what we considered were the most important
conditions of the Department of Justice’s (DOJ) equitable sharing program.
We reviewed laws, regulations, and guidelines governing the accounting for
and use of DOJ equitable sharing receipts, including the Guide to Equitable
Sharing for State and Local Law Enforcement Agencies, dated April 2009.

Scope and Methodology

      Our audit concentrated on, but was not limited to, equitable sharing
receipts received by the WMDTF between July 1, 2010, and May 20, 2013.
The U.S. Department of the Treasury administers a similar equitable sharing
program; we did not identify any Treasury funds shared with WMDTF. Our
audit included equitable sharing revenues received through only the DOJ
equitable sharing program.

       We performed audit work at the WMDTF facility in Jefferson County,
Colorado. To accomplish the objectives of the audit, we interviewed WMDTF
officials and examined records, related revenues, and expenditures of
equitable sharing revenues and expenditures. In addition, we relied on
computer-generated data contained in the DOJ Consolidated Asset Tracking
System (CATS) for determining equitably shared revenues and property
awarded to the WMDTF during the audit period. We did not establish the
reliability of the data contained in the CATS system as a whole. However,
when the data we relied upon is viewed in context with other available
evidence, we believe the opinions, conclusions, and recommendations
included in this report are valid.



                                    14

       Our audit specifically evaluated WMDTF compliance with three
essential equitable sharing guidelines: (1) Equitable Sharing Agreement and
Certification reports; (2) accounting for equitable sharing receipts; and (3)
use of equitable sharing funds. In planning and performing our audit, we
considered internal controls established and used by the WMDTF over DOJ
equitable sharing receipts to accomplish our audit objectives. However, we
did not assess the WMDTF’s financial management system’s reliability,
internal controls, or whether it, as a whole, complied with laws and
regulations.

       In the scope of this audit, WMDTF had 207 cash/proceeds receipts
totaling $1,485,827. WMDTF did not receive any equitably shared property
in the scope of this audit. We tested a judgmental sample of 5 receipts
totaling $497,803. In the same period, WMDTF had 42 expenditures totaling
$414,922. We selected all 42 expenditures for testing. A judgmental
sampling design was applied to obtain broad exposure to numerous facets of
the disbursements reviewed, such as dollar amounts. This non-statistical
sample design does not allow projection of the test results to all
disbursements.

      The WMDTF was not required to submit Single Audit Reports during
the scope of this audit. However, WMDTF was audited quarterly by the
WMDTF’s member agencies. We reviewed the auditors’ assessments, which
disclosed no control weaknesses or significant noncompliance issues.




                                     15

                                                                         APPENDIX III

      SUMMARY OF TESTED EQUITABLE SHARING PURCHASES
                            DETERMINED TO BE
                               ALLOWABLE                                        EXPENDITURES
NO.    ITEM DESCRIPTION        (YES/NO)             JUSTIFICATION                 AMOUNT
 1        Facility rent           Yes          Law enforcement facilities           $ 7,523

2        Facility rent            Yes          Law enforcement facilities            7,416

3        Facility rent            Yes          Law enforcement facilities            7,416

4        Facility rent            Yes          Law enforcement facilities            7,416

5        Facility rent            Yes          Law enforcement facilities            7,416
6        Facility rent            Yes          Law enforcement facilities            7,416

7        Facility   rent          Yes          Law   enforcement   facilities        6,349
8        Facility   rent          Yes          Law   enforcement   facilities        6,882
9        Facility   rent          Yes          Law   enforcement   facilities        6,882
10       Facility   rent          Yes          Law   enforcement   facilities        6,882
11       Facility   rent          Yes          Law   enforcement   facilities        6,882

12       Facility rent            Yes          Law enforcement facilities            7,011

13       Facility rent            Yes          Law enforcement facilities            7,217

14       Facility rent            Yes          Law enforcement facilities            7,217
                                               Law enforcement
15     Computer server            Yes          equipment                             8,994
16       Facility rent            Yes          Law enforcement facilities            7,217

17       Facility rent            Yes          Law enforcement facilities            7,217

18       Facility rent            Yes          Law enforcement facilities            7,217

19       Facility rent            Yes          Law enforcement     facilities        7,217
20       Facility rent            Yes          Law enforcement     facilities        2,217
21       Facility rent            Yes          Law enforcement     facilities       12,217
22       Facility rent            Yes          Law enforcement     facilities        7,217
      Reimbursement of                         Law enforcement
23       buy money                Yes          investigations                        6,035
         Facility rent
24                                Yes          Law enforcement     facilities        7,217
25       Facility rent            Yes          Law enforcement     facilities        7,217
26       Facility rent            Yes          Law enforcement     facilities        7,217
                                               Law enforcement
27    Meth waste disposal         Yes          investigations                        5,941
28       Facility rent            Yes          Law enforcement     facilities        7,549
                                               Law enforcement
29     Computer server            Yes          equipment                            10,414


                                        16

                             DETERMINED TO BE
                                ALLOWABLE                                    EXPENDITURES
 NO.     ITEM DESCRIPTION       (YES/NO)             JUSTIFICATION             AMOUNT
 30         Facility rent          Yes          Law enforcement facilities        7,549
 31         Facility rent          Yes          Law enforcement facilities        7,549
 32         Facility rent          Yes          Law enforcement facilities        7,549
 33         Facility rent          Yes          Law enforcement facilities        7,549
                                                Law enforcement
  34   Computer equipment          Yes          equipment                      63,506
  35      Facility rent            Yes          Law enforcement facilities      7,549
  36      Facility rent            Yes          Law enforcement facilities      7,549
  37      Facility rent            Yes          Law enforcement facilities      7,549
  38      Facility rent            Yes          Law enforcement facilities      7,549
  39   Operating expenses          No           Unsupported                    20,000
  40   Operating expenses          No           Unsupported                    20,000
  41   Operating expenses          No           Unsupported                    20,000
  42   Operating expenses          No           Unsupported                    20,000
                                TOTAL                                       $414,922
Source: OIG assessment based on WMDTF accounting records and supporting
        documents, and the Guide to Equitable Sharing for State and Local Law
        Enforcement Agencies




                                          17

                                                                                                                 APPENDIX IV

               CRIMINAL DIVISION RESPONSE TO
                     THE DRAFT REPORT




ro              I),,,i,]   Sk,,''''''
                Rc~i,,_>OJ . \.~ .Jt ~iID' , ,,:
                Jx:n'-'" R•• ~·, .- ;,r A"lil nil;,,'
                011',-, <>",_"" r"",,""t,,· (;" ....1 (0:(;)             _______ "7

                Gene 1',.1>01>, Ad,hm Dqlltv
                _"'''~
                     h:.r"il"" ""d \\'''''')'
                                                        Cbk/Ait-;:.---
                                                   T~~~~",i'''' IAI'\C'L<,)
                f) ,.:L'.•diL Rc; '" _:,,' Ll ~ ',V", ,k'LO           lJlll ~   T<ISI; 1'".:" hq\li",bk   'h:w. ~
                trw:.. ""     :,"ivit~'"

        'n , '-.'''''''->e"d "m ", \~:_IL Ii h",,,,_ "".ld Ln : 2,_ 2G: 1, ,"",-            ,,]i.-, ,_,n,,,,,,,iIcd b,
"",u" "r i:., •.1"" ,d,-<l..offi ''P'''' ,nd d,ni'oJ ,,,;Om '>CC"'''''y tor fun! do,,,,,, ,: L:c
 ,"''')J.:Jj"~ "de! "':>Ole fO",:nc.L:d"icn. Ti'c I... ) :",',mg i, c: ;,' Dr ,'", ,,,,Ii,. "'1'.... ,
.. "OJill",!>.; ot,""" pcj"io;r~ tl' '."e W",,, >..r"~,, n."~ T"," ,,,-,e', (WVDTr) "I"i"/ ,]' i><"n<,
pq,r"" ",", "I':



                .1. ..,,,.,, t • ., tho w~m fF ,.h,",-, r'lut •• !.", .'"",;,,~ ~~,C<"'".. , ."'!
                    (hL;fl,.,;',n ,'opo," "",ely ;n            "'''''rd,,,,,
                                                                   wit1 cqllitablc ru'riII.~
                    ."Klcllooe"

                1. W'""         "It. th_ ""-r,,., f     ,,, , ••• "     'h' i! ole,,-"',.. ".~ h.I'I,'",c."
                     I"-'><"~"'""" '0 ",c.",,'I, ,,~()d           o~\\,"'bl' .horin~ '~><ndin\l'''            Oil I!!
                     . " •••1 ",\ifk>tiom lo"n,

                ~. ~""." .ho1. "h. W'-JfJTF b., •      p",n'" '" ~I"," '" ,,""neil< iI. <~\\;"bk>
                     ,h.d," f."d, ''''<"C'' 1"" ~-h,'. fom!> or, ,,,,In.l.




                                                         18

         '•., A'.~; "",'":",.,, ""I ~'I"''')' I ;n"";"';n~ ''''''ion (AFMI..Sj ("~"ll" \<':1 tl\C>e
'~""", ,,,,'"Li,,,><_I "x =!",,' Lk'_ L)" -'''MDn i",:, "·~,,,t ,'",. "~"m.n:cDciC( ""';,,,, m;j
~j;x,d\lJ~'    ,";J                                      ,,,,,,,,,,i,"
                  >"o"i~c J,,,",,,,,,,w,,,u ,."";1",;"" _he               ·...
                                                                       "".,,~ h·,




cc"    L,,"i,.,~·'         D':"""•. '·, D
       '-\"""--'"L [n,-,[("
       "'.>li- -   j"j,,,    <;'O,,~
       1 ,>-oJ' "'__ \""   ",>em ,,"I ~)i.i ~ '"
       IXn,,",, lim""c
       A,";': ,<,,,m
       Cnm;,_,] Th,i""




                                                   19

APPENDIX V




                                                                          I 11'           11
                                                                 !        ~]~~         ; "j
                                                                 l        l, Il'       ii'
                                                                          lWl          I
             RESPONSE TO THE DRAFT REPORT




                                                                                            ljl
              WEST METRO DRUG TASK FORCE




                                                                 !
                                                                 i
                                                                 ,        J;'1
                                                                          ]I.l ·
                                                                 i 1'!ll., .h
                                                                                       Ij
                                                                                       ,    1'i
                                                                                            [
                                                                 l   ·1 I' 11 f t
                                                                     fIlIi   1 'II
                                            ·· i'6
                                            o    •




                                                                                                  20

                                             ~
                                               ,-                I ! 'jll . 1 . 't ]i'l
                                                                      1"11 11 j'
                                            · f!...
                                            -
                                            '
                                            2

                                             ~
                                            ~ ~~

                                                 .
                                                ~ ~
                                                          •
                                                                 il         11 j fijI
                                                                      ~ Jll;1
                                                                      o
                                                               h II t.lfl ! jl j l,
                                            - I·
                                            ~ ~!         'pll ·r IIIJ1 1, ,,1 II·
                                                         =II
                                                                      I'"
                                                         . . I 0 l, ., ,01H
                                                               'i       1
                                                                             i 0'
                                                                                  ., l'I
                                                      • ,. . I Ij . ,I",,1 ' II' IT
                                                         Ii  j ,          !1iil:& '   ~!.!'!
                                                      i qdfl! Ii               '
                                                      j ldhl
                                                               . ;IlplJ . ,I . III,
                                                                        ll:        "
_ ... ... or _ _ _




       ~
               ",
""""'" ... "'" "."..-. -
                    "",-"
                                 .. ..
"'"' "'"'1-""'....... .,.-, ""' ~,- ""_.ilOO <><'"'" .... ..
........... ..... F,"''''''''",,",'''''_ . ,"-_"_ .... _

-_
 _                                ~...   .. .... '""'   - ""'
                                                              -.
                                                              ..".,
                                                             _~
                                                                         .... ~,
..--. 1Iw"" """'" = ... "' ... ",,""'"''''''', Th< ... .." '" ... , ."..... _ ""
,.. """ ""~ "'..-- ""'""'''' ~,,-'" ..-"',                                -"
_ _ .... .., "" _ " . "IT no . ""","" "'Il: W        '"   tr ,..,,""""" "'"""'""




... _----­
__ . _ ~""' T""~




-
• .0 ....
_     0_
( ](1)"""'Jl




                                            •
                             ,




                                      21

                                                              APPENDIX VI

             ACTIONS NECESSARY TO CLOSE THE REPORT

      We provided copies of the draft audit report to the WMDTF and the
Criminal Division. Because the Criminal Division concurred with the report
recommendations, we consider all report recommendations resolved.

     The following details the actions necessary to close each report
recommendation.

Recommendation Number:

1.	   Resolved. The Criminal Division concurred with our recommendation
      that it ensure the WMDTF submits ESAC reports timely in accordance
      with equitable sharing guidelines. The WMDTF also concurred with our
      recommendation and provided additional explanation regarding the
      late reports, and stated its assurance that future ESAC reports would
      be submitted timely.

      This recommendation can be closed when we receive evidence that the
      WMDTF has implemented procedures to submit ESAC reports timely in
      accordance with equitable sharing guidelines.

2.	   Resolved. The Criminal Division concurred with our recommendation
      that it ensure the WMDTF develops and implements procedures to
      accurately report equitable sharing expenditures on its annual ESAC
      report. The WMDTF also concurred with our recommendation and
      stated assurance that future reports will accurately reflect periodic
      expenditures.

      This recommendation can be closed when we receive evidence that the
      WMDTF has implemented procedures to accurately report equitable
      sharing expenditures on its annual ESAC report.

3.	   Resolved. The Criminal Division concurred with our recommendation
      that it ensure the WMDTF has a process in place to reconcile its
      equitable sharing funds request log when funds are received. The
      WMDTF also concurred with our recommendation and explained that
      its equitable sharing accounting system will be updated by
      September 2, 2013, and stated that equitable sharing requests will be
      properly monitored.


                                     22

      This recommendation can be closed when we receive evidence that the
      WMDTF has implemented procedures to reconcile its equitable sharing
      funds request log when funds are received.

4.	   Resolved. The Criminal Division concurred with our recommendation
      that it remedy the $80,000 in unsupported questioned costs for four
      $20,000 transfers that were not traceable to specific expenditures.
      The WMDTF also concurred with our recommendation, and provided a
      ledger of 162 transactions totaling $141,914.36, for the period from
      June 14, 2012, to May 14, 2013. However, the ledger did not indicate
      which specific transactions were paid with equitable sharing funds.
      Every expenditure made with equitable sharing funds must be
      accounted for and identifiable in accordance with the Guide to
      Equitable Sharing for State and Local Law Enforcement.

      This recommendation can be closed when we receive evidence that the
      WMDTF has identified the specific expenditures paid by the four
      $20,000 transfers.




                                    23

